TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Full Costs of Work Performed on
                  Reimbursable Agreements Are Not Always
                    Charged, Resulting in Reduced Funds
                      Available for Tax Administration



                                           July 20, 2012

                              Reference Number: 2012-10-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


THE FULL COSTS OF WORK                                reimbursable services performed. Finally, the
PERFORMED ON REIMBURSABLE                             IRS could not always provide verifiable
AGREEMENTS ARE NOT ALWAYS                             information supporting all of the costs
CHARGED, RESULTING IN REDUCED                         associated with the agreements reviewed.
FUNDS AVAILABLE FOR TAX                               WHAT TIGTA RECOMMENDED
ADMINISTRATION
                                                      TIGTA recommended that the IRS Chief
                                                      Financial Officer ensure that all active
Highlights                                            reimbursable agreements are based on the full
                                                      costs estimated for the services provided. In
Final Report issued on July 20, 2012                  addition, the IRS Chief Financial Officer should
                                                      reconcile the identified difference between
                                                      reimbursement receipts recorded in the
Highlights of Reference Number: 2012-10-076
                                                      IRS’s Integrated Financial System and the
to the Internal Revenue Service Chief Financial
                                                      expected reimbursement for one of the
Officer.
                                                      agreements TIGTA reviewed and pursue
IMPACT ON TAXPAYERS                                   collection of additional funds, as applicable.
                                                      Finally, the IRS Chief Financial Officer should
During Fiscal Year 2011, the IRS entered into         ensure guidelines are updated to require
89 agreements to perform services on a                overhead be included in reimbursable work cost
reimbursable basis. These services were               estimates and provide refresher training on a
conducted primarily on behalf of other Federal        periodic basis to responsible business unit
agencies with the IRS collecting approximately        personnel.
$90 million related to these agreements.
However, our review identified significant costs      In their response, IRS management agreed with
incurred by the IRS that were not reimbursed.         our recommendations. The IRS plans to
When the IRS is reimbursed less than the cost         conduct an on-going, full review of all
of performing reimbursable work, it must fund         reimbursable agreements beginning in Fiscal
this work using its own operating budget,             Year 2013; review one agreement to reconcile
thereby reducing funds available for tax              differences and determine the reason for the
administration.                                       differences; develop interim guidance on
                                                      reimbursable work cost estimates; and develop
WHY TIGTA DID THE AUDIT                               and hold training on current and upcoming
                                                      procedure changes.
This audit was initiated to evaluate the
IRS’s administration of its reimbursable program
to ensure the IRS is being timely and
appropriately reimbursed for services provided.
WHAT TIGTA FOUND
The IRS is not always charging other entities for
the full costs of the work performed on
reimbursable agreements, resulting in the IRS
not being fully reimbursed for services
performed. Our review of six randomly selected
agreements identified more than $28 million in
costs incurred by the IRS that were not
reimbursed. These unreimbursed costs related
to three (50 percent) of the six agreements
TIGTA reviewed. In addition, the IRS did not
use a consistent approach when calculating
overhead to be included in the costs of the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 20, 2012


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Full Costs of Work Performed on
                             Reimbursable Agreements Are Not Always Charged, Resulting in
                             Reduced Funds Available for Tax Administration (Audit # 201110030)

 This report presents the results of our review for implementing reimbursable agreements. The
 overall objective of this review was to evaluate the Internal Revenue Service’s (IRS)
 administration of its reimbursable program to ensure the IRS is being timely and appropriately
 reimbursed for services provided. The review is included in our Fiscal Year 2012 Annual Audit
 Plan and addresses the major management challenge of Achieving Cost Savings and Program
 Efficiencies.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                             The Full Costs of Work Performed on Reimbursable
                         Agreements Are Not Always Charged, Resulting in Reduced
                                  Funds Available for Tax Administration




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Is Not Always Accurately
          Charging Other Entities for the Costs of Work Performed........................... Page 3
                    Recommendations 1 through 3:........................................... Page 6

                    Recommendation 4:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measures............................................................... Page 12
          Appendix V – Management’s Response to the Draft Report ....................... Page 14
          The Full Costs of Work Performed on Reimbursable
      Agreements Are Not Always Charged, Resulting in Reduced
               Funds Available for Tax Administration




                   Abbreviations

CFO          Chief Financial Officer
FMS          Financial Management Service
FY           Fiscal Year
IRS          Internal Revenue Service
                            The Full Costs of Work Performed on Reimbursable
                        Agreements Are Not Always Charged, Resulting in Reduced
                                 Funds Available for Tax Administration




                                               Background

The Economy Act, United States Code, Title 31, Sections 1535-1536, authorizes agencies of the
Federal Government to enter into agreements to provide goods and services to one another on a
reimbursable basis, provided that the head of an agency has determined it is in the best interest of
the Federal Government. The Economy Act also requires that the direct and indirect costs of
fulfilling a reimbursable agreement be recovered from the agency receiving the goods and
services.
The Internal Revenue Service (IRS) uses Form 5181, Agreement Covering Reimbursable
Services, to enter into reimbursable agreements with requesting parties. The IRS requires that
reimbursable agreements be authorized by delegated IRS personnel before work begins and that
reimbursable agreements include a description of the scope of work, services and products that
must be provided, the period of performance, the dollar amount, and payment method.
The IRS Chief Financial Officer (CFO) has overall responsibility for budgetary oversight and
accountability for the IRS reimbursable program. The CFO is also responsible for issuing
financial management guidance governing the reimbursable program, ensuring that reimbursable
agreements are recorded properly in the IRS’s accounting systems, and collecting and posting
reimbursable earnings. The IRS business units are responsible for ensuring agreement terms
comply with appropriations law principles, developing accurate project cost estimates, and
administering the agreement, including ensuring prompt billing in accordance with agreement
terms. The IRS business units are also responsible for providing effective financial management
oversight of their respective reimbursable agreements. Financial transactions relating to
reimbursable agreements are recorded in the IRS’s Integrated Financial System.1
During Fiscal Year (FY) 2011, the IRS entered into 89 reimbursable agreements and collected
approximately $90 million for services performed related to these agreements. The
89 agreements consisted of 74 reimbursable agreements with other Federal agencies and
15 reimbursable agreements with non-Federal entities, such as various State and foreign
governments.
This review was performed at the IRS Wage and Investment Division and the Chief Technology
Officer’s Modernization and Information Technology Services organization in New Carrollton,
Maryland; the offices of the IRS Research, Analysis, and Statistics, Criminal Investigation, and
the Chief Financial Officer in Washington, D.C.; and the Beckley Finance Center in


1
    The financial management system for the administrative activities in the IRS.
                                                                                             Page 1
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



Beckley, West Virginia, during the period August 2011 through March 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 2
                         The Full Costs of Work Performed on Reimbursable
                     Agreements Are Not Always Charged, Resulting in Reduced
                              Funds Available for Tax Administration




                                     Results of Review

We found several opportunities where the IRS could improve its process to ensure it is fully
reimbursed for services provided to other Federal and non-Federal entities. Our review of
six randomly selected reimbursable agreements identified more than $28 million in costs
incurred by the IRS that were not reimbursed. These unreimbursed costs related to
three (50 percent) of the six agreements we reviewed. When the IRS is reimbursed less than the
cost of performing reimbursable work, it must fund this work using its own operating budget,
thereby reducing funds available for tax administration. Complete and reliable accounting and
accurate billing of the work performed on reimbursable activities is critical to ensuring the IRS is
correctly charging other entities for work performed.

The Internal Revenue Service Is Not Always Accurately Charging
Other Entities for the Costs of Work Performed
We determined that the IRS is not always charging other entities for the full costs of the work
performed on reimbursable agreements. In addition, the IRS does not use a consistent approach
when calculating overhead2 to be included in the costs of the reimbursable services performed.
Finally, the IRS could not always provide verifiable information supporting all of the costs
associated with the agreements we reviewed.

The IRS does not always request reimbursement for the full costs of work
performed
Our review of six randomly selected reimbursable agreements identified three (50 percent) where
significant costs were not reimbursed. For example:
   The IRS was not reimbursed for approximately $26 million in costs incurred during
    FYs 2010 through 2012 related to the processing of refund offsets. This includes
    approximately $7.7 million in estimated costs during FY 2012.3 The under-reimbursement is
    primarily attributable to a series of errors in the calculation of the cost-per-offset rate by
    Wage and Investment Division staff, complicated by a misunderstanding of the IRS’s
    reimbursement policy. As a result, the IRS was significantly under-reimbursed by the

2
  Overhead costs include general management and administrative services, procurement and contracting services,
facilities management services, and information technology services, etc.
3
  FY 2012 estimated costs are based on the projected number of cases to be processed during FY 2012, as provided
by the IRS.
                                                                                                         Page 3
                       The Full Costs of Work Performed on Reimbursable
                   Agreements Are Not Always Charged, Resulting in Reduced
                            Funds Available for Tax Administration



    Financial Management Service (FMS) for the services it provided during FYs 2010
    through 2012. The agreement is between the IRS Wage and Investment Division and the
    FMS for the costs to process refund offsets of taxpayer debts, such as delinquent student
    loans and child support. When informed of these errors, Wage and Investment Division staff
    responsible for administering the agreement acknowledged the calculation mistakes but
    informed us that they believed the amount of reimbursement under this agreement was
    capped by the FMS and could not be increased despite the actual cost for the work
    performed. However, the IRS was not able to provide documentation supporting
    reimbursement under the agreement being capped.
    Further, we found that the reimbursement rate that was established may not have been
    properly applied. The established reimbursement rate is the reimbursement per refund offset
    agreed to by the IRS and the FMS. Based on the 3,941,309 refund offsets reported by the
    IRS in FY 2011, we estimated the IRS should have received approximately $26.4 million in
    reimbursement from the FMS. However, per reimbursement receipts recorded in its financial
    management system, the IRS only received approximately $24.6 million, resulting in a
    potential under-reimbursement of approximately $1.8 million in FY 2011. This potential
    error was due to the lack of a reconciliation performed by IRS management comparing
    receipts recorded in its financial management system to the expected reimbursement for this
    work based on the terms of the agreement. IRS staff responsible for administering the
    agreement was unable to explain the difference we identified.
   The IRS was not reimbursed for more than $120,000 in overhead costs as the result of
    incomplete reporting of reimbursable costs incurred. The IRS’s supporting cost
    documentation for this reimbursable agreement included a charge for overhead for services
    performed for the Department of Education. However, when the responsible IRS business
    unit reported its costs incurred, it neglected to calculate and include the overhead costs in the
    reimbursable agreement.
   The IRS was not reimbursed for approximately $24,000 of expenses incurred under a
    reimbursable agreement with the Department of the Treasury due to a billing error. This
    error initially occurred due to a miscommunication between the IRS business unit and the
    CFO regarding whether these expenses were projected or actual costs that should be
    collected for this agreement. As a result, these expenses were not billed to the Department of
    the Treasury.

The IRS does not use a consistent approach when calculating overhead costs
Our review identified that IRS procedures for determining overhead costs were not followed as
required for four (66 percent) of the six agreements we reviewed. In addition, we determined
that overhead costs were not applied for the remaining two agreements reviewed.

                                                                                              Page 4
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



Noncompliance with overhead cost calculations can result in the IRS not being correctly
reimbursed for services performed. Because of the complexities involved in calculating
overhead, IRS procedures require that the CFO Office of Cost Accounting be contacted
regarding the overhead rate to be used on a specific reimbursable agreement. However, we
found that the CFO Office of Cost Accounting was not contacted regarding the calculation of
overhead in these four agreements and instead management generally calculated overhead based
on their own working knowledge of the different costs associated with the service provided.
Business unit representatives informed us they were previously unaware of the requirements to
contact the CFO Office of Cost Accounting regarding the overhead rate to be used. During our
audit fieldwork, the CFO took action to address this control breakdown. In December 2011,
CFO personnel conducted a training session to provide refresher training on reimbursable
agreement policies and requirements. This training included instruction on the proper
methodologies for determining full costs of reimbursable work. CFO management also informed
us that they plan to update the Reimbursable Operating Guidelines to include procedures to
require business unit documentation be sent to the CFO for review to ensure that overhead has
been included in reimbursable work cost estimates.
For the two remaining agreements, the reimbursement related to a very narrow range of clearly
defined and agreed costs (such as travel and equipment costs) and did not include any
IRS employee labor costs. Because of the unique nature of these agreements, the IRS business
unit involved determined that overhead would not be charged on these two agreements.
However, IRS procedures do not directly address whether overhead costs should be applied to
these types of reimbursable activities. If IRS personnel do not consistently charge overhead for
these types of agreements, this could result in inconsistent treatment of entities with which the
IRS enters into reimbursable contracts.

The IRS could not support all of the costs associated with reimbursable
agreements reviewed
For two (33 percent) of the six agreements we reviewed, documentation supporting the
computation of approximately $80,000 for direct labor costs could not be provided. Specifically,
business unit management responsible for estimating costs on these two agreements could not
provide verifiable documentation for the direct labor costs associated with these agreements.
Instead, they informed us that they estimated the direct labor attributable to this agreement based
on their general knowledge and experience.
Management further informed us that they do not have a process that allows them to readily track
the time that IRS staff work on reimbursable activities. As a result, we could not fully determine
whether the costs estimated and billed by the IRS to outside Federal agencies included all the
time spent by IRS employees performing the reimbursable work. Although the direct labor costs

                                                                                            Page 5
                       The Full Costs of Work Performed on Reimbursable
                   Agreements Are Not Always Charged, Resulting in Reduced
                            Funds Available for Tax Administration



associated with these reimbursable agreements was relatively low (approximately $80,000), the
lack of any actual time record data (including even informal manual records kept by the analyst
assigned) puts the IRS at risk of over or undercharging its customers for the services being
provided. Accurate and timely identification of costs is critical to the IRS’s ability to ensure its
reimbursement is consistent with the cost of work performed.

Recommendations
The Chief Financial Officer should:
Recommendation 1: Ensure that all active reimbursable agreements are based on the full
costs estimated for the services provided. In addition, the CFO should require that reimbursable
agreements be renegotiated, and additional reimbursement collected, where feasible, if it is
determined that the IRS is not being reimbursed based on the full estimated costs, such as with
the reimbursable agreement with the FMS.
       Management’s Response: The IRS agreed with this recommendation and will
       conduct an on-going, full review of all reimbursable agreements beginning in FY 2013.
Recommendation 2: Reconcile the difference identified between the FY 2011 FMS
agreement reimbursement receipts recorded in the Integrated Financial System and the expected
reimbursement for this work based on the terms of the agreement and pursue the collection of
any additional funds identified as not collected, as applicable.
       Management’s Response: The IRS agreed with this recommendation and will
       review this agreement to reconcile differences and determine the reasons for the
       differences by December 31, 2012. The IRS will then develop a plan of action.
Recommendation 3: Ensure the Reimbursable Operating Guidelines are updated to require
that overhead be included in reimbursable work cost estimates as applicable. The Guidelines
should be updated to clearly indicate the types of reimbursable agreements in which overhead
costs are not required, if appropriate. These procedures should also be updated to specifically
require CFO staff to periodically review agreements to identify instances in which reimbursed
funds are less than estimated, or do not include overhead charges, to identify potential under
billings.
       Management’s Response: The IRS agreed with this recommendation and is
       currently developing interim guidance on reimbursable work cost estimates to augment
       the Reimbursable Operating Guidelines. The guidance requests the business units submit
       any and all supporting documentation on costing prior to agreement signature.



                                                                                              Page 6
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



Recommendation 4: Provide refresher training on a periodic basis to responsible business
unit personnel to promote awareness of reimbursable agreement policies, including the need to
use documented and reliable sources of information when estimating project costs.
       Management’s Response: The IRS agreed with this recommendation and will work
       to develop and hold training on current and upcoming procedure changes and review
       methodologies, forms, the Integrated Financial System, and everyday how-to’s.




                                                                                         Page 7
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’s administration of its reimbursable
program to ensure the IRS is being timely and appropriately reimbursed for services provided.
To accomplish our objective, we:
I.     Determined the procedures used by the IRS to calculate, bill, and account for costs
       associated with work performed in connection with reimbursable agreements.
       A. Interviewed responsible IRS CFO and project management personnel regarding the
          process followed in calculating, billing, and accounting for costs associated with
          work performed in connection with reimbursable agreements.
       B. Reviewed the procedures used by the IRS to calculate, bill, and account for costs
          associated with work performed in connection with reimbursable agreements and
          identified key controls.
II.    Evaluated controls over the calculating, billing, and accounting for costs associated with
       work performed in connection with reimbursable agreements.
       A. Identified the population of all reimbursable agreements that had work performed in
          FY 2011, as of August 2011, and selected a stratified random sample of
          six agreements (three agreements more than $1 million and three agreements less than
          $1 million) to obtain a variety of agreements representing both large and small dollar
          values. The population of reimbursable agreements at the time of our sample
          selection was 78.
       B. Assessed whether the methodology under which reimbursable expenses were
          calculated was clearly explained and documented.
       C. Assessed whether the assigned costing of reimbursable agreements was in accordance
          with applicable laws and accounting standards.
       D. Ascertained whether the IRS calculated and billed reimbursable expenses in
          accordance with agreement terms for the sample selected in Step II.A. Our review of
          reimbursable agreement data in the IRS’s Integrated Financial System identified
          significant differences between reimbursable agreement collections reported and
          supporting cost documentation. However, in our opinion, using the data for our
          purposes did not adversely impact our analysis or the results reported.



                                                                                             Page 8
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies and procedures for
managing its reimbursable projects. We evaluated these controls by interviewing management,
selecting a sample of reimbursable agreements, and reviewing applicable documentation.




                                                                                        Page 9
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



                                                                                Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
Mary F. Herberger, Senior Auditor
James S. Mills, Jr., Senior Auditor




                                                                                       Page 10
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



                                                                    Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Chief, Criminal Investigation SE:CI
Chief, Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Director, Office of Research, Analysis, and Statistics RAS




                                                                          Page 11
                       The Full Costs of Work Performed on Reimbursable
                   Agreements Are Not Always Charged, Resulting in Reduced
                            Funds Available for Tax Administration



                                                                                    Appendix IV

                                Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $26,009,548 (see page 3).

Methodology Used to Measure the Reported Benefit:
We estimate the IRS was not reimbursed for $26,009,548 in costs incurred during
FYs 2010 through 2012 related to the processing of refund offsets for the FMS. The
under-reimbursement is attributable to a series of errors in the calculation of the cost per offset
by the Wage and Investment Division staff, complicated by a misunderstanding of the
IRS’s reimbursement policy. These calculation errors resulted in the IRS establishing an
incorrect per-offset reimbursement rate during FYs 2010 through 2012.
On a per-offset basis, the amount understated was $2.54 in FY 2010, $2.31 in FY 2011, and
$1.84 in FY 2012. The IRS reported that it processed 3,613,041 offsets in FY 2010 and
3,941,309 offsets in FY 2011. In addition, the IRS estimates that 4,200,000 offsets will be
processed during FY 2012. As a result, we estimated the total amount undercharged by the IRS
was $26,009,548 for FYs 2010 through 2012.
FY 2010 undercharging: $2.54 x 3,613,041 = $9,177,124.
FY 2011 undercharging: $2.31 x 3,941,309 = $9,104,424.
FY 2012 undercharging: $1.84 x 4,200,000 = $7,728,000.
Total estimated undercharging: $9,177,124 + $9,104,424 + $7,728,000 = $26,009,548.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $1,846,851 (see page 3).

Methodology Used to Measure the Reported Benefit:
We found that the reimbursement rate established for the processing of refund offsets for the
FMS may not have been properly applied. The IRS’s financial management system recorded
$24,602,088 in funds collected during FY 2011 related to its reimbursable agreement with the

                                                                                             Page 12
                      The Full Costs of Work Performed on Reimbursable
                  Agreements Are Not Always Charged, Resulting in Reduced
                           Funds Available for Tax Administration



FMS for the costs of refund offsets of taxpayer debts, such as delinquent student loans and child
support. However, we estimate that, based on the reimbursement rate established with the FMS,
the IRS should have been reimbursed $26,448,939 for the 3,941,309 transactions it processed in
FY 2011, resulting in a potential under-reimbursement of $1,846,851.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $120,755 (see page 3).

Methodology Used to Measure the Reported Benefit:
The IRS’s supporting cost documentation for one reimbursable agreement included a charge for
overhead as a percentage of the IRS’s expected workload for services performed for the
Department of Education. However, when the responsible IRS business unit reported its costs
incurred, it neglected to calculate or report the overhead costs specified in the reimbursable
agreement support cost documentation.
The IRS originally estimated its costs on this reimbursable agreement at $2,197,708 for FY 2011
($1,994,289 in nonoverhead costs and $203,419 for overhead costs). As a result, we estimate the
overhead costs represented 10.2 percent of the total nonoverhead costs for this reimbursable
agreement. In FY 2011, we determined the IRS collected $1,183,877 for services performed
associated with this reimbursable agreement, which consisted of nonoverhead costs. We
estimate the IRS undercharged this agency $120,755 in overhead costs during this period
[$1,183,877 x 0.102 = $120,755].

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $23,916 (see page 3).

Methodology Used to Measure the Reported Benefit:
The IRS was not reimbursed for approximately $23,916 of expenses incurred under a
reimbursable agreement with the Department of the Treasury. This error occurred due to a
miscommunication between the IRS business unit responsible for reporting reimbursable costs
incurred and the IRS CFO which is responsible for collecting reimbursement for those costs.




                                                                                          Page 13
         The Full Costs of Work Performed on Reimbursable
     Agreements Are Not Always Charged, Resulting in Reduced
              Funds Available for Tax Administration



                                                   Appendix V


Management’s Response to the Draft Report




                                                         Page 14
    The Full Costs of Work Performed on Reimbursable
Agreements Are Not Always Charged, Resulting in Reduced
         Funds Available for Tax Administration




                                                    Page 15
